                                       SOCIAL SECURITY
MEMORANDUM


Date:   April 15, 2002                                                              Refer To:

To:     The Commissioner

From:   Inspector General
Subject: Performance Measure Review: Reliability of the Data Used to Measure Employer Satisfaction
         (A-02-01-11012)


        Following consultations with congressional committees, the Office of the Inspector General
        agreed to review the Social Security Administration’s (SSA) performance indicators over a
        continuous 3-year cycle. We recently completed our first 3-year cycle. In conducting this
        work, we used the services of an outside contractor, PricewaterhouseCoopers, LLP (PwC),
        to assist us in our efforts.

        For this report, we used PwC to conduct the review of two of the Agency’s performance
        indicators related to the satisfaction employers have with the services SSA provides to
        them. The objective of the review was to assess the reliability of the data used to
        measure the employer satisfaction with SSA services.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                              James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 PERFORMANCE MEASURE REVIEW:
 RELIABILITY OF THE DATA USED TO
 MEASURE EMPLOYER SATISFACTION

    April 2002       A-02-01-11012




EVALUATION REPORT




                 .
Evaluation of Selected Performance
Measures of the Social Security
Administration:

Reliability of the Data Used to Measure Employer
Satisfaction

Office of the Inspector General
Social Security Administration
INTRODUCTION

This report is one of five separate stand-alone reports, corresponding to the
following Social Security Administration (SSA) process and performance
measures (PM):

q   Percent of employers rating SSA’s overall service as “excellent,” “very good”
    or “good” (PM #3).

       Fiscal Year (FY) 2000 Goal: 93 percent

q   Percent of employers rating SSA’s overall service as “excellent” (PM #4)

       FY 2000 Goal: 13 percent

This report reflects our understanding and evaluation of the process related to PMs #3
and #4. To achieve its strategic goal “To Deliver Customer-Responsive World-Class
Service,” SSA has developed several strategic objectives. One of these objectives is to
have 9 out of 10 customers rating SSA’s service as “good,” “very good,” or “excellent,”
by 2002 with most rating it “excellent.” SSA’s FY 2001 Annual Performance Plan (APP)
contains two performance indicators developed to meet this objective as follows:

q   Percent of employers rating SSA’s overall service as “excellent,” “very good” or
    “good” - This indicator will be considered achieved if 93 percent of employers
    surveyed rate SSA’s overall service as “excellent,” “very good” or “good.”

q   Percent of employers rating SSA’s overall service as “excellent” - This second
    indicator will be considered achieved if 13 percent of employers surveyed rate SSA’s
    overall service as “excellent.”

We performed our testing from September 21, 2000 through February 15, 2001. Our
engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland. The
procedures that we performed were in accordance with the American Institute of
Certified Public Accountants’ Statement on Standards for Consulting Services, and are
consistent with appropriate standards for performance audit engagements in
Government Auditing Standards (Yellow Book, 1994 version). However, we were not
engaged to and did not conduct an audit, the objective of which would be the expression
of an opinion on the reliability or accuracy of the reported results of the performance
measures evaluated. Accordingly, we do not express such an opinion.




                                            1
BACKGROUND

These indicators have been created to measure the overall satisfaction rate of
employers who performed wage reporting to SSA. The goal during FY 2000 is to have
93 percent of employers surveyed rating SSA’s overall service as “excellent,” “very
good,” or good,” with 13 percent rating SSA’s overall service as “excellent.” Below is an
overview of the Employer Satisfaction survey and data collection mechanism.

Survey Frequency

This study was first conducted in 1996 by the Office of Quality Assurance and
Performance Assessment (OQA) to assess the satisfaction of employers with SSA-
provided services and information. The results were used to develop employer-related
customer service standards. Specifically, this study aimed to seek opinions on the
following issues:

q   The completeness and clarity of SSA-provided written information;
q   The methods used to report wages; and
q   The usefulness of the SSA/Internal Revenue Service (IRS) Reporter newsletter.

In 2000, this study was repeated for a second time using a questionnaire that was
substantially modified. The 2000 administration of this survey collected information on
employers’ use, awareness, and satisfaction with the SSA wage reporting services. It
also sought opinions of employers on SSA’s plans for improving wage-reporting services
via the Internet.

Sample Design

Both administrations of this survey have used the SSA Employer Identification Master
File (EIMF) (1993 for 1996 study and 1998 for 2000 study) for the sampling frame. Each
time a stratified sample of employers was selected, with three strata defined based on
the number of employees for whom the wage reports were filed. All employers with no
known number of employees have been grouped together to form a fourth sampling
stratum. The following table provides a summary of the sampling design for the 2000
survey.

Table 1. Sampling Design and Universe Counts for the 2000 Administration

         Strata          Number of Employees             Population        Sample
        Strata 1                1 – 10                    4,200,000         1,000
        Strata 2               11 - 250                   1,700,000         1,000
        Strata 3                > 250                      100,000          1,000
        Strata 4               Unknown                     500,000           500
                         Total                            6,500,000         3,500




                                            2
                                   Questionnaire Design

The 1996 questionnaire was designed to include 23 questions, 10 of which were open-
ended. That questionnaire consisted of the following five sections.

q   Services received from the SSA
q   Level of service desired
q   Annual wage reporting
q   The SSA/IRS Reporter
q   Comments and remarks


In order to improve the 1996 questionnaire, 16 focus groups were conducted in
California, Florida, Illinois, and Maryland in May and June of 1999 by the Office of
Communications (OComm). Prior to these focus groups, which included six major
segments of employers and their representatives, OComm conducted a number of in-
depth interviews with representatives of employer and business groups. We applaud
these questionnaire improvement initiatives, as they have resulted in a more concise
survey instrument while reducing respondent burden.

The resulting 2000 questionnaire, which was shorter than the one used for the 1996
survey, consisted of the following three sections:

q   Use and awareness of SSA wage-reporting services
q   Opinions on SSA’s plans to improve wage reporting services via the Internet
q   Quality of wage-reporting services received from SSA

One of the main highlights of this survey was that a notable number of respondents
expressed unfamiliarity with the SSA services, as their wage reports were prepared by a
payroll service or by someone outside of the company.

                               Administration/Data Collection

The first survey was administered beginning in May 1996, while the second survey was
conducted between November 1999 and March 2000. Each administration followed a
procedure similar to what is outlined below:

q   All sampled individuals were mailed an advance letter announcing the survey. This
    letter provided a brief description of the study and informed respondents that the
    questionnaire would be arriving shortly.
q   Next, the survey packet was mailed. This packet consisted of a copy of the
    questionnaire and an explanatory letter regarding the purpose of the study. This
    letter assured confidentiality and provided an 800 number for those respondents
    requiring assistance.




                                             3
q   Soon after the initial mail-out, reminder postcards were sent to all sampled
    individuals.
q   Lastly, a second cover letter and questionnaire were sent to non-responders.

The following table provides a summary of the resulting response rates by strata for the
2000 survey. As seen, the overall response rate is only 40 percent, which is
substantially lower than the 52 percent rate achieved during the 1996 survey.

          Table 2. Sampling Design and Response Rate for the 2000 Survey
                                                                  Response
      Strata (Employees)     Sample    Excluded Responders
                                                                    Rate
             1 – 10           1,000       68          421            45%
            11 - 250          1,000       50          422            44%
             > 250            1,000       30          374            39%
           Unknown             500        51          108            24%
              Total           3,500      1991        1,325           40%

Several potential reasons have been offered for the lower response rates. First, most
employers do not seem to view themselves as customers or stakeholders, and instead
consider wage reporting as a burden. That is, there is not as much empathy on the part
of employers to participate in this survey as SSA might have expected. Second, a large
percentage of employers use a third party to process their wage reporting, making it
difficult for them to respond to questions with which they are not familiar. Finally, despite
the fact that sampled employers were asked to forward the questionnaire to individuals
or organizations they deemed most knowledgeable about the survey, only a very small
number of such third parties responded to the survey. To compensate for this under-
representation, OQA requested four large payroll services to complete the survey.
Although the information gathered from the four payroll services was not combined with
the results of the employer survey, it provided OQA with additional insight about SSA’s
wage reporting services.

                                  Analysis and Report Generation

Prior to data analysis, survey data were key entered and weighted to compensate for the
employed stratified sampling design. Subsequently, various estimates were generated
using the weighted data. An example of such estimates is provided in the following
table.




1
 Per OQA Employer Satisfaction Draft Report dated 10/12/2000: “The 199 employers were excluded because the
survey correspondence was undeliverable, or the questionnaire was returned with an annotation that the employer
was deceased, the company was out of business, etc.”




                                                       4
         Table 3. Overall Rating of Service Provided by SSA (2000 Survey)

                          Category                    2000        Target
                          Excellent                   3.4%         13%
                         Very Good                   15.6%
                            Good                     28.8%
                             Fair                     9.3%
                            Poor                      0.7%
                          Very Poor                   0.4%
                         No Opinion                  41.8%
                            Total                    100%
               Excellent, Very Good, or Good          48%          93%

Based on the results of these surveys, SSA is considering lowering the set targets to
more attainable levels. It is argued that since some employers view wage reporting as a
burden, they might be giving lower ratings to SSA, hence deflating the overall estimate
of percent satisfied. Other reasons offered for the low ratings include the fact that a
large number of employers are not aware of the many services provided by SSA to
employers.

When reporting the results of the survey SSA calculated the percent of respondents
providing a rating of Good, Very Good, or Excellent by eliminating all respondents who
have provided a “No Opinion” response. This approach increases the reported results of
48 percent to 82 percent.

RESULTS OF EVALUATION

During the period of September 21, 2000 to February 15, 2001, we evaluated the current
processes and controls, which support the FY 2000 SSA performance measurement
process. In addition, we determined the accuracy of the underlying performance
measure data. Our evaluation of the information provided by SSA management as of
February 15, 2001 allowed us to determine that the reported FY 2000 results of the two
performance measures tested (as itemized below) were reasonably stated based on the
methodology used by SSA.

                     Performance Measure                         Reported Result

   3. Percent of employers rating SSA’s overall service as         82 percent
      “excellent,” “very good,” or “good.”

   4. Percent of employers rating SSA’s overall service as          6 percent
      “excellent.”

However, we did note the following five opportunities for improvement in SSA’s
methodology:




                                           5
1. Survey methodology may have led to a large non-response rate;
2. Survey results cannot be extrapolated to the target population;
3. Survey results may be upwardly biased;
4. Survey design needs improvement; and
5. Errors were identified in FY 2000 Survey Draft Report.

These items were noted as a result of our testing of the SSA survey instrument, as well
as the focus group documentation, sampling parameters, and discussions with SSA and
its contractor staff.

1. Survey methodology may have led to a high non-response rate.

Overall 40 percent of employers surveyed responded to SSA. Although it is not
uncommon for mail surveys to experience response rates that are of this level or lower, it
is generally accepted, for example by the Office of Management and Budget (OMB), that
response rates of at least 70 percent2 are needed to provide credible results. This
response rate was partially due to the fact that a large number of employers had their
wage reports prepared by third parties and therefore experienced difficulties in
evaluating SSA effectively on this aspect. In addition, a significant number of employers
have minimal or no direct contact with SSA or knowledge of the type of services SSA
provides. This has led to a high non-response rate of 60 percent of employers surveyed.
For this research to serve as an employer satisfaction survey, it is critical for the
sampling frame to include only “eligible” employers. Eligible employers would be those
who have experience with the SSA-provided services.

The OMB Resource Manual for Customer Survey states, “The ability to make general
statements about your agency’s customers based on the survey results is linked to how
complete and accurate your frame is.”

The data collection methodology should be improved to ensure a better than 40 percent
response rate. SSA should consider the use of a Computer Assisted Telephone
Interviewing (CATI) method. By using a CATI method it would be possible to screen out
those employers who have had no direct contact with SSA. This will effectively eliminate
the need for forwarding the survey to third parties, which in turn will eliminate the
compounding effects due to responses from inappropriate respondents, and, based on
experience with such surveys, should increase the response rate. The Paperwork
Reduction Act of 1995, Implementing Guide, Chapter 6, F2 states, “Agencies shall use
electronic collection techniques where such techniques reduce burden on the public,
increase efficiency of government programs, reduce cost to the government and the
public, and/or provide better service to the public.” While mail surveys are sometimes
less expensive to administer, by utilizing the CATI method SSA could increase the
quality of the resulting data, and therefore increase the efficiency and effectiveness of
the survey.

If a CATI approach is not feasible, a second suggestion is to include a simple
“screening” section at the top of the questionnaire that asks whether respondents ever
2
    OMB Paperwork Reduction Act of 1995 Appendix C # 1.




                                                      6
used or attempted to use SSA services. If the answer is “NO,” the text of the
questionnaire would instruct the response to put the form in the return envelope and
return it, without further effort. This should tend to increase the response rate (by adding
those who are out of scope), to allow for a count of those using versus not using SSA
services, and to avoid the confusion of a handoff between the employer and the third-
party service providers. SSA could then send a separate survey to a sample of third-
party service providers, which is more controlled.

No matter what mode of data collection is employed, it is important to conduct non-
response analysis after the survey has been administered. This way, it would be
possible to design and implement a non-response adjustment step in the weighting
process, which can reduce some of the potential bias due to differential non-response.

2. Survey results cannot be extrapolated to the target population.

In order to minimize non-response, the current survey has instructed employers to
forward the questionnaire to the third party they use for wage reporting. This
snowballing feature has made it impossible to extrapolate the results to the target
population. Also, this approach mixes together the awareness results of the employers
and third party providers. Since these two groups are likely to have different levels of
awareness, it is best to produce separate awareness estimates for them.

The OMB Resource Manual for Customer Survey states, “The ability to make general
statements about your agency’s customers based on the survey results is linked to how
complete and accurate your frame is.”

3. Survey results may be upwardly biased.

The above issues have impacted the analysis and reporting of the survey data as well.
For instance, when calculating the percent of employers satisfied with the SSA services,
a large number of respondents who have expressed no opinion are excluded from
calculations. Because of this exclusion, the estimate of the percent of employers
satisfied with the SSA service changes from 48 percent (of the entire set of respondents)
to 82 percent (excluding those who said they had “no opinion”). It can be argued that
such an estimate is upwardly biased. Instead, the report should reflect the percents for
each of the answer categories, including no opinion, as shown in Table 3. The “no
opinion” response, as it is currently implemented, does not clearly distinguish between
those in the population who do not have an opinion because they did not use the
services from those who did use the service, but just do not have an opinion.

4. The survey design needs improvement.

Section 1 of the 2000 survey (page A2) includes a battery of awareness questions with
simple Yes/No type answer categories. This is not an efficient use of valuable space on
the questionnaire. Questions regarding awareness with simple answer categories (yes
or no) have limited informational value. Instead of allocating a significant part of the
survey to such questions, it would be advisable to change the structure of these
questions so that both awareness and degree to which respondents find the given
service useful can be captured. An example would be:




                                             7
On a scale of 1 to 5, where 1 means very useless and 5 means very useful, please rate
the usefulness of each of the following services provided by the SSA. If you are
unaware of the given service, please mark the “Don’t know” box.

Changing the wording of these questions and their corresponding answer categories
would allow SSA to obtain the awareness measures, while determining how useful
respondents find such services at the same time. In addition, the 2000 questionnaire did
not use question numbers, making it difficult for the respondent to delineate individual
questions, as some questions wrap to the next line. Numbering the questions will make
it easier to identify where questions begin and end.

5. Errors were identified in FY 2000 Survey Draft Report.

During our evaluation of the 2000 draft report, we identified a few minor mistakes. While
these errors will not have a significant impact on the reported results, it is important that
such errors be corrected in the final report. Examples of the errors are as follows:

q   Table 1 does not report percentages for all categories. We believe this is an
    oversight and that the excluded percentages should in fact be 14 percent.

q   In Table 2, for “Secure reporting of W-2 wages to SSA over the Internet,” the same
    frequencies are reported for both strata III and IV. Based on the data file provided by
    the SSA, the frequencies for stratum IV should be 32 percent, 40 percent, and
    28 percent (instead of 24 percent, 26 percent, and 40 percent, respectively).

CONCLUSIONS AND RECOMMENDATIONS

Our evaluation found that the primary goal of this survey has been fulfilled, namely to
report FY 2000 results of the two performance measures. However, our evaluation
noted several methodological, as well as administrative, issues with the 2000 survey.
We recommend that SSA consider the following corrective actions:

1. SSA should enhance the sampling frame to include a larger percentage of
   respondents and only those which are “eligible” employers (i.e., those employers
   who use SSA’s services and have direct contact with SSA).

SSA should consider the use of a more effective data collection methodology, such as a
CATI method. It is likely that SSA can obtain as many respondents as they did for the
most recent survey (approximately 1,300) at a cost comparable to the mailed out
protocol most recently employed. If SSA continues the mail protocol, telephone follow-
ups should be done for employers who, after the second follow-up, do not respond.

2. In addition, SSA should conduct a non-response analysis after the survey has been
   administered and develop non-response adjustment factors for the survey data.

3. If a CATI approach is not feasible, SSA should consider including a simple
   “screening” section at the top of the questionnaire that asks whether respondents
   ever used or attempted to use SSA services.




                                              8
4. SSA should change the structure of the yes/no questions so that both awareness
   and degree to which respondents find the given service useful can be captured.

5. In addition, SSA should number the questions to make it easier to identify where
   questions begin and end.

6. When calculating the percent of respondents providing a rating of Good, Very Good,
   or Excellent, the denominator should include all respondents, regardless of their
   ratings.

This will provide an unbiased estimate of percent satisfied.

7. In future surveys, SSA should ask respondents whether they use SSA services or
   not, and exclude them from the computation as non-customers.

APPROPRIATENESS OF THE PERFORMANCE MEASURES

As part of this engagement, we evaluated the appropriateness of each of the
performance measures with respect to the Government Performance and Results Act of
1993 (GPRA) compliance and SSA’s APP. To do so, we determined whether the
specific indicators and goals corresponded to the strategic goals identified in SSA’s
APP, determined whether each of these indicators accurately measure performance,
and determined their compliance with GPRA requirements.

Performance Measures #3 and #4 align logically with the SSA Strategic Plan but
still need improvement

The relationships between PMs #3 and #4 and the applicable SSA Strategic Goal are
depicted in the following figure:




                                            9
                                                                    SS A M ission
                                         T o prom ote the econom ic security of the nation's people
                                              through com passionate and vigilant leadership in
                                                                    h i Social Security program s.
                                       shaping and m anaging A m erica's



                                                              S trategic "G oal #2"

                                                   To deliver custom er-responsive, world-
                                                                class service




                                                              Strategic O bjective
                                                     By 2001, to have 9 out of 10 custom ers
                                                    rate SSA’s service as “good,” “very good”
                                                   or “excellent,” with m ost rating it “excellent”




                            Perform ance Indicators & G oals                        Perform ance Indicators & G oals

                             Percent of em ployers rating SSA ’s
                                                                                    P ercent of em ployers rating SSA’s
                             overall service as “excellent, “very                      overall service as “excellent”
                                      good,” or “good”




The SSA mission is supported by five strategic goals, including Goal #2, “To deliver
customer-responsive world-class service.” Goal #2, in turn, is supported by several
strategic objectives, including the relevant objective dealing with customer perceptions,
“By 2002, to have 9 out of 10 customers rate SSA’s service as ‘good,’ ‘very good,’ or
‘excellent,’ with most rating it ‘excellent’.“ Performance Measures #3 and #4
characterize employer satisfaction with SSA services. Both PM #3 and PM #4 logically
align with SSA’s strategic planning process.

Based on the taxonomy of performance measures included in Appendix F, both PM #3
and PM #4 are measures of accomplishment because they report on a result (employer
satisfaction) achieved with SSA resources. They are further categorized as outcome
measures because they indicate the accomplishments or results (employer satisfaction)
that occur because of the SSA services provided. As shown in Appendix F, outcome
measures include public perceptions of outcomes, such as employer satisfaction.

Within the framework of GPRA, Performance Measures #3 and #4 fit the intent of an
outcome measure because they provide “…a description of the intended result, effect, or
consequence that will occur from carrying out a program or activity.”3 The intent of these
two performance measurements is to gauge employer satisfaction (i.e., the effect) for the
activity of providing services. They can both be useful to management and external
stakeholders, as encouraged by OMB’s Circular A-11 Preparation and Submission of
Budget Estimates. Given the duplication of the measures, SSA should eliminate one of

3
    OMB Circular A-11 Preparation and Submission of Budget Estimates , Section 200.2.




                                                            10
the measures, unless it finds utility in keeping both of them. Nevertheless, these
measures could be improved, as discussed below.

In its current form, the metric may not provide reliable results. The survey methodology
might not be appropriate for the underlying objectives. The results cannot be
extrapolated to the target population and may be upwardly bias. Furthermore, our
evaluation of the draft report indicated that there were errors in the reported data. In
addition, the survey design was confusing for employers and the corresponding results
are skewed. For example, almost 42 percent of respondents stated they had no opinion
on the services provided by SSA.

Ideally, a performance metric should help the agency to take action and affect the
performance of the indicator being measured. However, due to the presence of
numerous third parties, the measurement becomes clouded and is, therefore, less
credible and less useful.

The metric readily facilitates comparisons between geographic regions and business
segments. With some enhancements, the measurement system could also be used to
benchmark against other agencies with employer relationships, such as the IRS, the
Health Care Financing Administration, the Pension Benefit Guaranty Corporation, and
the Office of Personnel Management.

Recommendations

8. SSA should enhance its measurement system to ensure greater accuracy.

9. They should also take steps to make the metric actionable so that it will provide
   greater utility for the agency.

10. In addition, SSA should consider using the measurement to benchmark against other
    agencies that interface with employers.

11. Finally, SSA should eliminate one of the two measures, unless SSA finds a utility in
    keeping both measures.

Agency Comments

The Agency agreed with or has a plan of action to address 8 of the 11 recommendations
contained in this report. In fact, it has already taken steps to implement some of the
recommendations. For example, it has eliminated yes/no questions when it modified its
survey instrument. The removal of this type of question was recommended since
answers to it provide limited informational value.

SSA disagreed with the recommendation that all respondents should be included in the
denominator, regardless of their rating, when calculating the percent of respondents
providing a rating of Good, Very Good or Excellent. The Agency stated that basing
ratings on substantive responses is an acceptable practice, as long as accompanying
discussion indicates that the percentages reflect the opinions of those who provided a
rating.




                                           11
The Agency also disagreed with the recommendation to consider using the employer
satisfaction measurement to benchmark against other agencies that interface with
employers. The Agency stated that modifications of the performance measure, as well
as changes made to the survey instrument, addressed the need for benchmarking at this
time. It also stated that its day-to-day interactions with States and the IRS provided an
awareness of “best practices” used by those entities. SSA provides due consideration to
incorporating those practices into its own service delivery model.

Finally, we recommended that the Agency consider eliminating one of the two measures.
SSA, however, intends to keep both measures at this time. SSA stated that the first
measure, Percent of employers rating SSA’s overall service as “excellent,” “very good”
or “good”, identifies the universe of satisfied employers/customers. The second
measure, Percent of employers rating SSA’s overall service as “excellent”, serves to
capture how well the Agency is achieving best in business service. The full text of SSA’s
comments can be found in Appendix C.

OIG Response

We appreciate SSA’s comments on this report. The implementation of the
recommendations contained within this report will help to ensure better measurement of
the level of service provided to employers who have used SSA’s services. We are glad
to see that the Agency has already taken steps to implement some of our
recommendations through modifications made to its survey instrument.

We continue to believe SSA should reexamine the methods used to calculate the
employer’s level of satisfaction with its services. With the current methods used, the
estimate of the percent of employers satisfied with the SSA service changes from 48
percent (of the entire set of respondents) to 82 percent (excluding those who did not
have an opinion of SSA’s services). SSA‘s reporting of the results of the employer
survey should reflect the percents for each of the answer categories, including those that
do not capture an opinion of the service provided. SSA should also work to differentiate
between the respondents who did receive service, but did not express an opinion, and
those who did not receive service from SSA so they could not express an opinion.

In regards to benchmarking, we note the usefulness of SSA’s interaction with other State
agencies and the IRS and suggest that SSA continue to look for opportunities to
benchmark its operations against other agencies that interface with employers.

Finally, while we respect the Agency’s prerogative to create its performance measures,
we believe that the use of both measures is repetitive. SSA can provide decisionmakers
with a clear understanding of the satisfaction of employers who have had contact with
SSA through the use of one performance measure.




                                           12
                           APPENDICES

APPENDIX A – Scope and Methodology

APPENDIX B – Acronyms

APPENDIX C – Agency Comments

APPENDIX D – Performance Measure Summary Sheets

APPENDIX E – Performance Measure Process Maps

APPENDIX F – Performance Measure Taxonomy
                                                                         Appendix A

                        SCOPE AND METHODOLOGY

The Social Security Administration’s (SSA) Office of the Inspector General contracted
PricewaterhouseCoopers LLP (PwC) to evaluate 11 SSA performance indicators
identified in its Fiscal Year (FY) 2001 Annual Performance Plan (APP). We performed
our testing from September 21, 2000 through February 15, 2001. Since FY 2001
performance results were not yet available as of the date of our evaluation, we
performed tests of the performance data and related internal controls surrounding the
maintenance and reporting of the results for FY 2000. Specifically, we performed the
following:

1. Obtained an understanding and documented the FY 2000 Employer Survey
   Methodology;

2. Tested the reasonableness of the survey data;

3. Determined whether performance measures were meaningful and in compliance with
   the Government Performance and Results Act of 1993 (GPRA); and

4. Identified findings relative to the above procedures and provided recommendations
   for improvement.

Our engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland.
The procedures that we performed were in accordance with the American Institute of
Certified Public Accountants’ Statement on Standards for Consulting Services, and are
consistent with appropriate standards for performance audit engagements in
Government Auditing Standards (Yellow Book, 1994 version). However, we were not
engaged to and did not conduct an audit, the objective of which would be the expression
of an opinion on the reliability or accuracy of the reported results of the performance
measures evaluated. Accordingly, we do not express such an opinion.

1. Obtained an understanding and documented the FY 2000 Employer Survey
   Methodology.

We obtained an understanding of the underlying process and operating procedures
surrounding the generation of the performance measures through interviews and
meetings with the appropriate SSA personnel. Our work involved a comprehensive
evaluation of the survey methodology used for this performance measure. The specific
steps included evaluating the sampling and questionnaire designs, data collection
procedures, and data analysis and reporting. We evaluated the following documents:

q   1996 Final Report, issued in April 1998

q   2000 Draft Report, issued in October 2000

q   2000 Focus Group reports, undated.




                                          A-1
                                                                         Appendix A

2. Tested the reasonableness of the survey data.

To ensure the reasonableness of the number reported in the FY 2000 GPRA section of
the SSA Performance and Accountability Report, we evaluated the Employer
Satisfaction Survey data provided by SSA’s Office of Quality Assurance and
Performance Assessment. We verified the accuracy of the data by calculating the
frequencies and counts using SAS software. This included calculating the percent of
employers rating SSA wage reporting service as “excellent,” “very good,” or “good.”

3. Determined whether performance measures were meaningful and in
   compliance with GPRA

As part of this engagement, we evaluated the appropriateness of each of the
performance measures with respect to GPRA compliance and SSA’s APP. To do so, we
determined whether the specific indicators and goals corresponded to the strategic goals
identified in SSA’s APP, determined whether each of these indicators accurately
measure performance, and determined their compliance with GPRA requirements.




                                          A-2
                                                                 Appendix B
                                ACRONYMS

APP     Annual Performance Plane
CATI    Computer Assisted Telephone Interviewing
EIMF    Employee Identification Master File
FY      Fiscal Year
GPRA    Government Performance and Results Act
IRS     Internal Revenue Service
OAS     Office of Automation Support
OComm   Office of Communications
OMB     Office of Management and Budget
OQA     Office of Quality Assurance and Performance Assessment
PM      Performance Measure
PwC     PricewaterhouseCoopers LLP
SSA     Social Security Administration
                  Appendix C

AGENCY COMMENTS
                                                                ~\, SECu
                                                              :JC.;~
                                                              $/j/ts~~
           "'
                .,                                            ~I,: IIIIIII~~~
                                                                J"..,/sT?J'

                                                    SOCI-AL       SEC-URITY


MENIORANDU!\tI



Date:                                                                                     Rct~rTo: SlJ-3
            December        18,      2001

To:             James G. Ruse, Jr.
                Inspector General

From'           Larry Dye     "" ~          -   +
                Chief of Sta~

Subjcct'
                Office of the Inspector General (OIG) Draft Report, "Evaluation of Selected Performance
                Measures of the Social Security Administration: Reliability of the Data Used to Measure
                 Employer Satisfaction" (A-O2-01-11012)-INFORMATION


                We appreciate OIG's efforts in conducting this review. Our comments on the report content and
                recommendations are attached.

                Please let us know if we can be of further assistance. Staff questions can 1?ereferred to
                 Dan Sweeney on extension 51957.

                 Attachment:
                 SSA Response
                                                                                  Appendix C

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA USED TO
MEASURE EMPLOYER SATISFACTION” (A-02-01-11012)

Recommendation 1

Enhance the sampling frame to include a larger percentage of respondents and only those which
are “eligible” employers, i.e., those employers who use the Social Security Administration’s
(SSA) services and have direct contact with SSA.

Comment

We agree. We have discontinued the generalized sampling frame used in the survey OIG
reviewed. We have already implemented a survey in FY 2002 targeted to employers who have
received direct service from SSA; i.e., employers who called the Employer Reporting Services
Center (ERSC) for assistance. This sampling frame includes specific contact information that
will greatly enhance our ability to achieve an acceptable response rate.

Recommendation 2

Conduct a non-response analysis after the survey has been administered and develop non-
response adjustment factors for the survey data.

Comment

We will conduct the suggested analysis if the response rate for the survey falls below acceptable
levels. We anticipate that our revised methodology, which includes use of Computer Assisted
Telephone Interviewing (CATI) on a more targeted sample, will result in a much higher response
rate.

Recommendation 3

If a Computer Assisted Telephone Interview approach is not feasible, consider including a
simple “screening” section at the top of the questionnaire that asks whether respondents ever
used or attempted to use SSA services.

Comment

We have adopted a CATI for the current survey, which also utilizes a completely redesigned
questionnaire developed to assess satisfaction with service provided by the ERSC.
                                                                                    Appendix C

Recommendation 4

Change the structure of the yes/no questions so that both awareness and degree to which
respondents find the given service useful can be captured.

Comment

Our current survey does not include yes/no questions.

Recommendation 5

Number the questions to make it easier to identify where questions begin and end.

Comment

We agree. The CATI software being used for the current survey eliminates this problem.

Recommendation 6

When calculating the percent of respondents providing a rating of Good, Very Good, or
Excellent, the denominator should include all respondents, regardless of their ratings.

Comment

We disagree. Basing ratings on substantive responses is acceptable practice, as long as
accompanying discussion indicates that the percentages reflect the opinions of those who
provided a rating, as was done in the report prepared by the Office of Quality Assurance and
Performance Assessment. It should also be noted that the rating questions did not include a
choice of "no opinion" as indicated in OIG's report; the choice was "not applicable/service not
used," which served as a screening device that fit into the format of the questionnaire.

Recommendation 7

In future surveys, ask respondents whether they use SSA services or not, and exclude them from
the computation as non-customers.

Comment

Our FY 2002 survey specifically targets employers who have received direct service from SSA
(i.e., employers who call the ERSC for assistance).




                                               C-1
                                                                                    Appendix C
Recommendation 8

Enhance the measurement system to ensure greater accuracy.

Comment

We agree. The revised methodology for the employer survey should produce this result.

Recommendation 9

Take steps to make the metric actionable so that it will provide greater utility for the Agency.

Comment

We agree. We have modified the employer performance indicator to "Percent of employers
rating SSA's overall service during interactions with SSA as excellent, very good or good." This
performance measure will be based solely on results of a survey of employers who have called
the ERSC. Therefore, the performance measure will indicate satisfaction specifically with
service from the ERSC. The survey results will identify specific areas where improvements can
be made in the Center's service in order to increase satisfaction as captured by the performance
measure. In the future, we intend to include additional types of employer interactions in the
survey. At that time, we will determine if and how the employer performance measures should
be modified.

Recommendation 10

Consider using the measurement to benchmark against other agencies that interface with
employers.

Comment

We believe the modification to the indicator described above and changes to the survey instrument
address the need for benchmarking at this time. In addition, our day-to-day interactions with the
States and the Internal Revenue Service provide us with an awareness of “best practices” used by
those entities. Due consideration is given to incorporating those practices into our own service
delivery.




                                                C-2
                                                                                   Appendix C
Recommendation 11

Eliminate one of the two measures, unless SSA finds a utility in keeping both measures.

Comment

At this time, we intend to keep both measures. We developed the two performance measures to
capture how well the Agency was achieving both parts of the customer satisfaction strategic
objective--"...9 out of 10 customers rate SSA's service as good, very good or excellent" and "with
most rating it excellent." It is consistent with the two measures assessing the satisfaction of our
core business customers. In both instances, the first measure identifies the universe of satisfied
employers/customers. The second measure serves to capture how well the Agency is achieving
best in business service.




                                               C-3
                                     Appendix D

Performance Measure Summary Sheets
                                                                                                                                    Appendix D
                                   PERFORMANCE MEASURE SUMMARY SHEETS


Name of Measure                                         Measure Type                 Strategic Goal/Objective
3) Percent of employers rating SSA’s overall service    Percentage                   Goal: To deliver customer-responsive world-class service.
as “excellent,” “very good,” or “good.”                                              Objective: By 2002, to have 9 out of 10 customers rate
                                                                                     SSA’s service as “good”, “very good”, or “excellent,” with
                                                                                     most rating it “excellent”.

Purpose                                                                                                                    Survey Frequency
To assess the percent of employers rating SSA’s overall service as excellent, very good, or good, SSA’s Office of          Yearly
Quality Assurance and Performance Assessment (OQA) surveyed a sample of employers obtained from SSA’s
Employer Identification Master File (EIMF) for CY 1998. The EIMF is updated based on data received from the IRS
Master Business File.

Target Goal                               How Computed                                                                     Data Source
93%                                       Number of employers surveyed by SSA’s OQA who rate overall service as            Employer Satisfaction
                                          “good,” “very good,” or “excellent” divided by the total number of respondents   Survey
                                          to that question.




                                                                     D-1
                                                                                                                                Appendix D
Designated Staff Members                                                Division
Jean Venable                                                            OSM
Mark Ruley                                                              OSFE
Lois Smith                                                              OSFE
Norman Goldstein                                                        OQA
Marvin Brody                                                            Office of Automation Support (OAS)
Allan Kaufman
Peg Blatter
Sail Reiner
Bartona Harrison

Testing and Results
We performed an evaluation of the survey methodology used for this performance measure. The specific steps included evaluating the
sampling and questionnaire designs, data collection procedures, and data analysis and reporting. In this process, we evaluated the following
documents and data.

·   1996 Final Report, issued in April 1998
·   2000 Draft Report, issued in October 2000
·   2000 survey data
·   2000 Focus Group reports, undated

Refer to “Results of Evaluation” for a description of the findings.




                                                                     D-2
                                                                                                                                    Appendix D

Name of Measure                                           Measure Type                  Strategic Goal/Objective
4) Percent of employers rating SSA’s overall service as   Percentage                    Goal: To deliver customer-responsive world-class service.
“excellent.”                                                                            Objective: By 2002, to have 9 out of 10 customers rate
                                                                                        SSA’s service as “good”, “very good”, or “excellent,” with
                                                                                        most rating it “excellent”.
Purpose                                                                                                                    Survey Frequency

To assess the percent of employers rating SSA’s overall service as excellent. SSA’s Office of Quality Assurance and        Yearly
Performance Assessment (OQA) surveyed a sample of employers obtained from SSA’s Employer Identification Master
File (EIMF) for CY 1998. The EIMF is updated based on data received from the IRS Master Business File.
Target Goal                              How Computed                                               Data Source

13%                                      Number of employers surveyed by SSA’s OQA who              Employer Satisfaction Survey
                                         rate overall service as “excellent” divided by the total
                                         number of respondents to that question.
Designated Staff Members                                                   Division

Jean Venable                                                               OSM
Mark Ruley                                                                 OSFE
Lois Smith                                                                 OQA
Norman Goldstein                                                           OAS
Marvin Brody
Allan Kaufman
Peg Blatter
Sail Reiner
Bartona Harrison




                                                                        D-3
                                                                                                                              Appendix D
Testing and Results
We performed an evaluation of the survey methodology used for this performance measure. The specific steps included evaluating the sampling
and questionnaire designs, data collection procedures, and data analysis and reporting. In this process, we evaluated the following documents
and data.
· 1996 Final Report, issued in April 1998
· 2000 Draft Report, issued in October 2000
· 2000 survey data
·   2000 Focus Group reports, undated
Refer to “Results of Evaluation” for a description of the findings.




                                                                      D-4
                                   Appendix E

PERFORMANCE MEASURE PROCESS MAPS
                                                                                           Performance Measure # 3 & 4
                                                                                           Employer Satisfaction Survey
                                                                                                                                                              Appendix E
                       Executive Order 12862 requires SSA                                                                                          In addition to the Executive Order, SSA's
                        to survey its customers for the kind                                Goal #2 is to deliver customer-                         Office of the Senior Financial Executive
                       and quality of services they want and                                responsive world-class service.                       (OSFE) requested that OQA obtain specific
                       their level of satisfaction with existing                                                                                   information from employers in its survey.
                                       services.




                                                                   Developed Sample                        Administered Survey                                          Analyzed Data and
   Established                                                                                                                           Collected and Prepared
                                Designed Survey                      selection and                         (Between Nov 1999                                             Report Results
 Survey objectives                                                                                                                          Data for Analysis
                                                                     methodology                            and March 2000)


Details:
                                                                                                    To maximize the response rate,
                                                               Stratified random sample                                                                                  OQA provided the
                                                                                                    OQA followed the Total Design        Survey responses were
Measured employers'                                            of 3,500 employers from                                                                                 summarized results of
                             The Office of                                                          Method developed by a                key-entered into an
use, awareness, and                                            approximately 6.5 million                                                                              the survey in a report to
                             Coummunications                                                        contractor.                          Access database on the
satisfaction with                                              employers who reported                                                                                    SSA management
                             (OComm) conducted                                                                                           LAN by OQA
SSA's wage reporting                                           wages during calendar
services                     in-depth interviews               year 1998
                                                                                                    Sampled employers were notified
                                                                                                    in advance by mail of their
                                                                                                    selection for the survey
                                                                                                                                         OQA received the
                             OQA developed a                   Of the 3,500 selected                A questionnaire and explanatory      database as an ASCII
                             survey questionnaire              employers, 199 were                  letter were mailed 10 days after     file, and placed it onto a
Collected responses          in cordination with               excluded due to death, out           the mailing of the advance letter.   mainframe
to questions related         the Senior Financial              of business, or unable to
to SSA's plans to            Executive and the                 locate, resulting in a
improve employers'           MMP workgroup                     sample of 3,301                      Approximately 3 weeks later,
wage-reporting                                                                                      reminder postcards were mailed
services.                                                                                           to non-respondents                   OQA edited data, applied
                                                                                                                                         weights and produced
                                                                                                                                         tables using the
                                                                                                    After an additional 3 weeks, a       mainframe data and SAS
                             OComm conducted                                                        second cover letter and
                             16 Focus Groups                                                        questionnaire were mailed to all
                                                                                                    nonrespondents

                                                                                                    1,325 of the 3,301 employers
                                                                                                    responded to the survey
                                                                                                    questionnaire, resulting in a 40%
                                                                                                    response rate



                                                                                              E-1
                                                                                                                                                                                                Appendix E
                                                                         PERFORMANCE MEASURE TAXONOMY



                                                                                             Categories of Performance Measures:


Efforts are the amount of financial                                                                                                                                                          These indicators measure the
and nonfinancial resources (in                                                                                                                                                               resources used or cost (for
terms of money, material, and so                                                                                                                                3) Measures that relate      example, in dollars, employee-
                                                                                                      2) Measures of
forth) that are put into a program    1) Measures of efforts                                                                                                           efforts to            hours, or equipment used) per
or process. Measures of service
                                                                                                     accomplishments                                                                         unit of output. They provide
                                                                                                                                                                   accomplishments
efforts also include ratios that                                                                                                                                                             information about the production
compare financial and                                                                                                                                                                        of an output at a given level of
nonfinancial resources with other                                             Accomplishment measures report                                                                                 resource use and demonstrate an
measures that may indicate                                                    what was provided and achieved                                                                                 entity's relative efficiency when
potential demand for services,                                                with the resources used.                                                                                       compared with previous results,
such as general population,                                                                                                                                                                  internally established goals and
service population, or lane-miles                                                                                                                                                            objectives, generally accepted
                                                                                              Outputs measure the quantity of services provided;
of road.                                                                                                                                                                                     norms or standards, or results
                                                                                              outcomes measure the results of providing those
                                                                                                                                                                                             achieved by similar jurisdictions.
                                                                                              outputs.


                                                                                                                                                                                       Cost–outcome measures that
   Financial resources that are put
                                                                                                                                                                                       relate efforts to the outcomes
      into a program or process
                                                                                  Output measures                                                                                           or results of services




   Non-financial resources that are                                                                                                         Outcome measures                           Efficiency measures that relate
          put into a program                                                                                                                                                                   efforts to outputs
              or process                                                                                                                                                                          of services

                                                                                                                                         These indicators measure
                                                                                                                                         accomplishments or results that occur (at
                                                   Quantity of a service                                                                 least partially) because of services
                                                                                                      Quantity of a service
                                                  provided that meets a                                                                  provided. Results also include measures
                                                                                                           provided
                                                certain quality requirement                                                              of public perceptions of outcomes. For
                                                                                                                                         example, measures may include the
                                                                                                                                         percentage of students achieving a
                                                                                                                                         specified skill-level gain in reading; the
                                      These indicators measure the physical quantity of          These indicators measure the
                                                                                                                                         percentage of the population being served
                                      a service provided that meets a test of quality. For       physical quantity of a service
                                                                                                                                         by public transportation; the percentage of
                                      example, measures may include the percentage of            provided. For example, measures
                                                                                                                                         lane-miles of road in excellent, good, or
                                      students graduated or promoted who have met a              may include the number of
                                                                                                                                         fair condition; and the clearance rate for
                                      minimum prespecified standard of achievement;              students promoted or graduated;
                                                                                                                                         serious crimes or the percentage of
                                      the percentage of buses meeting a prespecified             the number of passenger miles
                                                                                                                                         residents rating their neighborhood as
                                      on-time standard of achievement; the percentage            provided by public transit; the
                                                                                                                                         safe or very safe.
                                      of lane-miles of road repaired to a certain minimum        number of lane-miles of road                                 Adapted from GPRA, GASB Concept Statement No.2,
                                      satisfactory condition; and the percentage of              repaired; and the number of crimes
                                      criminal investigations performed that result in the       investigated.                                                and the "Performance Measurement for Government"
                                      identification of a prime suspect.                                                                                                 web site at Rutgers University
                                                                                                                                                                 www.rutgers.edu/Accounting/raw/seagov/pmg/
                                                                                                                                                                                   index.html



                                                                                                                E-2
                           DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff, OFAM                 10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees,third
parties, and by SSA employees in the performance of their duties. Or also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA ' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
